   February 28, 2006




Acquisition Management

Source Selection Procedures for the
C-5 Avionics Modernization Program
(D-2006-058)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
AFFARS                Air Force Federal Acquisition Regulation Supplement
AMP                   Avionics Modernization Program
FAR                   Federal Acquisition Regulation
SSA                   Source Selection Authority
USD (AT&L)            Under Secretary of Defense (Acquisition, Technology, and
                         Logistics)
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704



                                                               February 28,2006


MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (ACQUISITION)
SUBJECT: Report on the Source Selection Procedures for the C-5 Avionics
         Modernization Program (Report No. D-2006-058)

      We are providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Douglas P. Neville at (703) 428-1061 @SN 328-1061) or Ms. Amy L. Mathews at
(703) 428-1094 (DSN 328-1094). See Appendix D for the report distribution. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:




                                     Defense Financial Auditing
                                              Service
                Department of Defense Office of Inspector General
Report No. D-2006-058                                                  February 28, 2006
   (Project No. D2005-D000FP-0174.000)

               Source Selection Procedures for the C-5 Avionics
                           Modernization Program

                                 Executive Summary

Who Should Read This Report and Why? Civilians and uniformed officers who are
involved in the Air Force acquisition decision-making process should read this report
because it identifies issues related to the source selection procedures used by the
Air Force in the acquisition of the C-5 Avionics Modernization Program.

Background. In November 2004, the Acting Under Secretary of Defense (Acquisition,
Technology, and Logistics) commissioned a study to review acquisition-related actions
taken by the former Principal Deputy Assistant Secretary of the Air Force for Acquisition
and Management (Principal Deputy). As a result of that study, the Acting Under
Secretary of Defense (Acquisition, Technology, and Logistics) identified eight actions for
further investigation and requested that the Department of Defense Inspector General
review them. This audit focuses on one of these actions relating to the award of the C-5
Avionics Modernization Program contract to Lockheed Martin Aeronautical Systems on
January 22, 1999.

Results. Air Force personnel did not adequately document the decision process used to
award the C-5 Avionics Modernization Program contract to Lockheed Martin
Aeronautical Systems. Specifically, the Source Selection Advisory Council and the
Source Selection Authority did not document their rationale for the initial selection
evaluation results and subsequent changes to those results, and the Air Force did not
provide the oversight needed to ensure the decisions were documented. As a result, the
C-5 Avionics Modernization Program solicitation and contract award were unnecessarily
vulnerable to manipulation. Identifying the source selection process as a high risk area
and establishing a review process that tests the effectiveness of the controls over the
process will provide the oversight needed to reduce the likelihood of manipulation. We
also reviewed the managers’ internal control program as it related to the source selection
oversight process. (See the Finding section for details.)

Management Comments. The Military Deputy, Office of the Assistant Secretary of the
Air Force (Acquisition) concurred with the recommendations; therefore, no further
comments are required. See the Finding section of the report for a discussion of
management comments and the Management Comments section of the report for a
complete text of the comments.
Table of Contents
Executive Summary                                                    i

Background                                                          1

Objectives                                                          2

Managers’ Internal Control Program                                  2

Findings
     Controls Over the Source Selection Process                     4

Appendixes
     A.    Scope and Methodology                                    11
     B.    The Druyun Study                                         13
     C.    Information on Positions, Duties, and Responsibilities   14
     D.    Report Distribution                                      16

Management Comments
     Assistant Secretary of the Air Force (Acquisition)             19
Background
    The C-5 Galaxy is one of the largest aircraft in the world. It carries oversized
    cargo for the Air Mobility Command. A C-5 with a cargo load of 270,000 pounds
    can fly 2,150 nautical miles, offload, and fly to a second base 500 nautical miles
    from the original destination, all without aerial refueling.

    In 1998, the Air Mobility Command began an aggressive program to modernize
    the C-5. The C-5 Avionics Modernization Program (AMP) is comprised of two
    aspects: the All-Weather Flight Control System and Global Air Traffic
    Management compliance. The objective of the C-5 AMP is to replace the existing
    flight and engine instrument system and the flight control system with integrated,
    state-of-the-art, cost-effective, highly reliable and capable systems. Additionally,
    the C-5 AMP will address emerging Civil Aviation Authority requirements for
    communication, navigation, and surveillance for operation in the global air traffic
    management environment.
    Darleen Druyun. Darleen Druyun was the Principal Deputy Assistant Secretary
    of the Air Force for Acquisition and Management from 1993 until her retirement
    in November 2002. In that position she supervised, directed, and oversaw the
    management of Air Force acquisition programs. Moreover, Druyun was the
    source selection authority for the C-5 AMP. On April 20, 2004, Druyun entered a
    plea of guilty for conspiring to violate section 208 (a), title 18, United States
    Code. Druyun admitted that she may have allowed personal interests to affect her
    judgment on acquisition decisions she made. On October 1, 2004, Druyun was
    sentenced in United States District Court to nine months in prison to be followed
    by seven months of community confinement. She was also ordered to serve 150
    hours of community service and fined $5,000.

    DoD Initiatives. In November 2004, the Acting Under Secretary of Defense
    (Acquisition, Technology, and Logistics) (USD [AT&L]) commissioned a study
    on Air Force acquisition actions involving Druyun (hereafter referred to as the
    Principal Deputy). The Acting USD (AT&L) designated the Deputy Director of
    the Defense Contract Management Agency to lead the study. The review focused
    on 407 acquisition actions as potentially having the Principal Deputy’s
    involvement. The results of the review were documented in a February 2005
    report titled “The Druyun Study,” which identified eight actions for further
    investigation. The study team recommended that the Acting USD (AT&L)
    consider these actions for referral to the appropriate authorities for additional
    scrutiny. (See Appendix B for additional information on the study.) In a
    memorandum dated February 11, 2005, the Acting USD (AT&L) requested that
    the Department of Defense Inspector General review the eight actions identified
    in the study. This audit focuses on one of the identified actions related to the C-5
    AMP, specifically, the award of contract F33657-98-C-0006/0007 to Lockheed
    Martin Aeronautical Systems on January 22, 1999.

    The Druyun Study. The C-5 AMP portion of the study identified two actions
    that “appeared irregular and may not have been conducted in the best interest of




                                         1
    the Government.” These actions included the reassignment of the Source
    Selection Authority (SSA) responsibilities and the proposal rating changes made
    by the Principal Deputy in support of her source selection decision.

           Source Selection Authority. On January 25, 1998, the Assistant
    Secretary of the Air Force (Acquisition) delegated the Commander of the
    Aeronautical System Center as the SSA for the C-5 AMP. However, in February
    1998, the Assistant Secretary of the Air Force (Acquisition) was promoted and the
    Principal Deputy assumed his source selection responsibilities which she retained
    throughout the C-5 AMP source selection process. (See Appendix C for
    information on the positions, duties, and responsibilities of these key acquisition
    executives.) On March 26, 1998, following the departure of the Assistant
    Secretary of the Air Force (Acquisition), the Principal Deputy issued a
    memorandum that rescinded the C-5 AMP SSA delegated to the Commander of
    the Aeronautical System Center and, instead, named herself SSA for the
    C-5 AMP.

           Proposal Ratings. This irregularity pertained to the ratings given to the
    proposals of potential contractors for the C-5 AMP. On November 17, 1998, the
    Source Selection Advisory Council (Advisory Council) briefed the Principal
    Deputy on the C-5 AMP proposals. Instead of using the ratings presented by the
    Advisory Council in her Source Selection Decision Document, the Principal
    Deputy revised the ratings in favor of Lockheed Martin Aeronautical Systems’
    proposal.

Objectives
    Our announced audit objective was to determine whether the C-5 AMP was
    procured in accordance with the Federal Acquisition Regulation (FAR) and
    Defense Federal Acquisition Regulation Supplement. However, because the Air
    Force Federal Acquisition Regulation Supplement (AFFARS) included
    requirements in addition to the Defense Federal Acquisition Regulation
    Supplement, we evaluated the source selection against the FAR and AFFARS.
    Specifically, we assessed whether evaluation factors used for awarding the
    C-5 AMP contract were properly applied in accordance with the FAR and
    AFFARS. We also reviewed the managers’ internal control program as it related
    to the overall objective. See Appendix A for a discussion of the scope and
    methodology.

Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”




                                         2
August 28, 1996, require DoD organizations to implement a comprehensive
system of management controls that provides reasonable assurance that programs
are operating as intended and to evaluate the adequacy of the controls.

Scope of the Review of the Management Control Program. We reviewed the
adequacy of the source selection management controls related to the C-5 AMP
contract award. We reviewed management’s self-evaluation applicable to those
controls.

Adequacy of Management Controls. We identified material management
control weaknesses for the source selection process as defined by DoD
Instruction 5010.40. Specifically, the Air Force did not have management
controls in place to ensure that source selection decisions were adequately
documented and justified. The recommendations, if implemented, will correct the
identified weaknesses and could improve the Air Force source selection
procedures for awarding contracts. A copy of this report will be provided to the
senior official responsible for management controls in the Office of the Under
Secretary of Defense (Acquisition, Technology, and Logistics).




                                   3
                   Controls Over the Source Selection
                   Process
                   Air Force personnel did not adequately document the decision process used
                   to award the C-5 AMP contract to Lockheed Martin Aeronautical Systems.
                   Specifically, the Advisory Council and the Source Selection Authority
                   (Principal Deputy) did not document their rationale for the initial selection
                   evaluation results and subsequent changes to those results. This condition
                   occurred because Air Force acquisition executives did not recognize the
                   source selection process as a high risk area and, subsequently, did not
                   validate the effectiveness of the internal controls over the source selection
                   process. As a result, the C-5 AMP solicitation and contract award were
                   unnecessarily vulnerable to manipulation.

Source Selection Criteria
           Federal Acquisition Regulation. FAR Part 15, “Contracting by Negotiation,”
           October 10, 1997, states:
                   [P]roposal evaluation is an assessment of the proposal and the offeror’s
                   ability to perform the prospective contract successfully. An agency
                   shall evaluate competitive proposals and then assess their relative
                   qualities solely on the factors and subfactors specified in the
                   solicitation. Evaluations may be conducted using any rating method or
                   combination of methods, including color or adjectival ratings,
                   numerical weights, and ordinal rankings. The relative strengths,
                   deficiencies, significant weaknesses, and risks supporting proposal
                   evaluation shall be documented in the contract file.

           In addition, FAR Part 15, states:
                   [T]he SSA’s decision shall be based on a comparative assessment of
                   proposals against all source selection criteria in the solicitation. While
                   the SSA may use reports and analyses prepared by others, the source
                   selection decision shall represent the SSA’s independent judgment.
                   The source selection decision shall be documented, and the
                   documentation shall include the rationale for any business judgments
                   and tradeoffs made or relied on by the SSA, including benefits
                   associated with additional costs. Although the rationale for the
                   selection decision must be documented, that documentation need not
                   quantify the tradeoffs that led to the decision.

           Office of Management and Budget. Office of Management and Budget
           Circular A-123, “Management’s Accountability and Control,” June 21, 1995, *
           states that agencies and individual Federal managers must take systematic and
           proactive measures to develop and implement appropriate, cost-effective
*
    Effective throughout the C-5 AMP solicitation and contract award; the revised Circular A-123,
    “Management’s Responsibility for Internal Control,” became effective in FY 2006 and contains the same
    requirement.



                                                       4
management controls for results-oriented management; assess the adequacy of
management controls in Federal programs and operations; identify needed
improvements; take corresponding corrective action; and report annually on
management controls.

Air Force Federal Acquisition Regulation Supplement. The Air Force Source
Selection Integrated Product Team selected the C-5 AMP as a test candidate to
follow new Air Force source selection policy and procedures. These policies and
procedures were outlined in the Draft AFFARS Part 5315.6, “Source Selection
Policy,” July 31, 1997. Draft AFFARS Part 5315.6 stated:
       In using the best value approach, the Government seeks to award to an
       offeror who gives us the greatest confidence that they will best meet
       our requirements. This may result in an award being made to a higher
       rated, higher priced offeror where the decision is consistent with the
       evaluation factors and the SSA reasonably determines that the technical
       superiority and/or overall business approach of the higher priced
       offeror outweighs the cost difference.

Because participants in the test case raised concerns, the Air Force did not
implement this version of AFFARS Part 5315.6.

AFFARS Appendix AA, “Formal Source Selection for Major Acquisitions,”
May 1996, requires that supporting reports and documents provide an audit trail
from the highest to the lowest elements of an evaluation. In addition, Appendix
AA states:

   •   The SSA must be presented with sufficient indepth information on each of
       the competing offerors and their proposals to permit a reasoned and
       rational selection decision.

   •   Members of the Advisory Council and Source Selection Evaluation Board
       from all disciplines must work together to ensure that the SSA is presented
       an accurate, integrated assessment of each offeror’s proposal. Each
       member must be given access to the full range of evaluation tools
       available, including the advice of personnel in other disciplines who serve
       as source selection advisors.

   •   The SSA is responsible for the proper and efficient conduct of the entire
       source selection process. The SSA has full responsibility and authority,
       subject to law and applicable regulations, to select a source for award and
       approve the award of the contract. The SSA must also record the decision
       process and the supporting rationale in the Source Selection Decision
       Document.

   •   The basis for source selection and award of a contract must be limited to
       criteria or considerations that are stated in the solicitation. Air Force
       source selection awards are based on an integrated assessment of each
       offeror’s cost, specific criteria, assessment criteria, proposal risk,
       performance risk, and general considerations.




                                         5
Source Selection Decision Environment
    Air Force personnel did not adequately document the decision process used to
    award the C-5 AMP contract in accordance with the requirements of FAR Part 15
    and AFFARS Appendix AA. Source selection records revealed inadequate
    support for the proposal ratings presented by the Advisory Council in their
    Proposal Analysis Report. Furthermore, we did not find support for the Principal
    Deputy’s delegation of the source selection responsibilities, the proposal
    performance/capability and risk ratings presented by the Advisory Council, and
    other proposal evaluation results, including perceived strengths and weaknesses of
    the competing contractors. Also, the Source Selection Decision Document
    included a training system upgrade as a “significant modification” that the
    program office did not previously identify as one of the C-5 AMP objectives, but
    did support the Principal Deputy’s source selection decision. While Air Force
    personnel presented several scenarios to rationalize the decisions made, they
    could not provide documentation to support that those scenarios actually took
    place during the source selection process.
    Support for Advisory Council Ratings. Air Force personnel could not provide
    adequate documentation to support the management, technical, and cost data
    contained in the Advisory Council’s Proposal Analysis Report. Although the
    Proposal Analysis Report included the results of an integrated analysis of the
    offerors' proposals, we were unable to validate the evaluation results by tracing
    them back to detailed analysis, reports, or meeting minutes. Without a clear
    auditable trail to support the Advisory Council's evaluation, we could not validate
    whether the decision to award the C-5 AMP contract to Lockheed Martin
    Aeronautical Systems was justified. AFFARS Appendix AA requires that
    supporting reports and documents provide an audit trail from the highest to the
    lowest elements of an evaluation. The lack of documentation for the Advisory
    Council's evaluation calls into question the validity of the information they
    provided to the SSA.

    Changes in Delegation of the Source Selection Authority. Air Force personnel
    could not provide support for the Principal Deputy’s decision to rescind the
    Assistant Secretary of the Air Force’s original SSA delegation and instead
    delegate the position to herself. Upon the departure of the Assistant Secretary of
    the Air Force (Acquisition), the Acting Secretary of the Air Force expanded the
    responsibilities of the Principal Deputy to include her designation as the SSA for
    all agency-level procurement actions, but not command-level (such as the C-5
    AMP source selection). Air Force personnel involved in the C-5 AMP provided
    the following rationale for the change in the SSA delegation: the C-5 AMP
    designation as a test case for new source selection procedures, requirements
    expansion and cost growth, and a possible request from warfighter representatives
    for additional oversight. However, Air Force personnel could not provide
    documentation to support any of these rationales.

    Changes to Proposal Ratings Presented by the Advisory Council. AFFARS
    Appendix AA requires that the SSA include the supporting rationale in the Source
    Selection Decision Document. The Principal Deputy disregarded
    performance/capability and risk proposal ratings presented by the Advisory


                                         6
     Council without documenting why she made the changes, other than to cite her
     personal experience. Specifically, the Principal Deputy changed ratings in the
     areas of avionics quality/integration, software development, and system
     engineering/program management in favor of Lockheed Martin Aeronautical
     Systems without providing justification for these changes in the C-5 AMP Source
     Selection Decision Document. C-5 AMP personnel explained that the proposal
     rating changes may have occurred because the Principal Deputy requested
     additional information from the Advisory Council that led to different ratings, or
     the Principal Deputy may have had conversations with the Advisory Council that
     led to a collective decision to change the ratings. Again, the documentation did
     not validate these scenarios.

     Changes to Contractors’ Perceived Strengths and Weaknesses. The Principal
     Deputy disregarded evaluated strengths and weaknesses presented by the
     Advisory Council without sufficient justification for her rationale. In the Source
     Selection Decision Document, the Principal Deputy identified weaknesses for the
     unsuccessful offeror although other documentation showed that the weaknesses
     had been resolved. The Principal Deputy also introduced new strengths for
     Lockheed Martin Aeronautical Systems. Further, the Principal Deputy
     exclusively cited the unsuccessful offeror for a weakness while other
     documentation showed Lockheed Martin Aeronautical Systems shared this
     weakness. The only justification Air Force personnel could provide regarding
     changes to the proposal results reported in the Source Selection Decision
     Document was that the Principal Deputy relied on her personal experience. Air
     Force personnel could not provide an explanation for the reasoning behind the
     changes to the proposal results. Again, the meeting minutes were not recorded or
     documented.

     Increase in the Significance of the Training System Upgrades. The C-5 AMP
     is comprised of an upgrade to autopilot capabilities and avionics to achieve
     Global Air Traffic Management compliance. In the Source Selection Decision
     Document, the Principal Deputy introduced a third upgrade to the aircrew and
     maintenance training system that further tailored the source selection decision in
     favor of the Lockheed Martin Aeronautical Systems’ proposal. The Principal
     Deputy did not document why she elevated the upgrades to the aircrew and
     maintenance training devices to become a significant enhancement for the
     C-5 AMP.

Source Selection Oversight
     Air Force acquisition executives did not recognize the source selection process as
     a high risk area and, therefore, did not validate the effectiveness of the internal
     controls over the source selection process. As a result, the C-5 AMP solicitation
     and the contract award were unnecessarily vulnerable to manipulation.

     Management Control Validation. The Air Force did not provide adequate
     oversight over the C-5 AMP source selection process. Specifically, no
     assessment or evaluation was conducted for the C-5 AMP source selection
     process. According to the Office of Management and Budget Circular A-123,
     agencies and Federal managers must take systematic and proactive measures to


                                          7
     assess the adequacy of management controls in Federal programs and operations.
     The source selection process was not reviewed as part of the Air Force
     management control program, which includes self-assessments and evaluations on
     five assessable units. If the Air Force viewed the source selection process as a
     high risk area, it would warrant inclusion in an assessable unit that is reviewed
     periodically. Air Force personnel stated that a self-assessment is conducted every
     year; however, records did not indicate that the Air Force conducted an evaluation
     or self-assessment during the C-5 AMP source selection process.

Other Factors Affecting Internal Controls
     In addition to the management controls shortcoming described in this report, we
     identified other external factors relating to congressionally mandated acquisition
     reform, changing contracting environment, and turnover of Air Force officials,
     which may have added to the vulnerability of the C-5 AMP solicitation and
     contract award process.
     Congressionally Mandated Acquisition Reform. Increased budgetary
     constraints and a public mandate for improved performance at every level of the
     government created the need for the Government’s procurement process to
     undergo reform. The major objectives of the acquisition reform were to empower
     government officials to make sound business decisions and to increase the
     efficiency and effectiveness of the acquisition process at a reduced cost to the
     taxpayer. As a result, the Federal Acquisition Streamlining Act of 1994 revised
     and streamlined the acquisition laws of the Federal Government in an effort to
     enhance the flexibility, agility, and timeliness in the acquisition process. To meet
     the mandated acquisition reform requirement, the Air Force drafted a new
     regulation designed to streamline the acquisition process, and it selected the
     C-5 AMP to participate in a test case to evaluate the new requirements. However,
     the Air Force later determined that the new draft regulation was ineffective in
     meeting the needs of the organization; therefore, they did not enact this
     regulation. Moreover, the C-5 AMP source selection was completed before the
     draft regulation they were following was deemed ineffective.
     Changing Contracting Environment. External influences also had an impact on
     the contracting environment during the time of the contract award for the
     C-5 AMP. Rapid changes in the contracting environment occurred largely
     because of the growing power of the Internet, electronic commerce, Federal
     supply schedules, DoD-wide electronic malls (E-Malls), and other technological
     advances. The Air Force recognized the changes and the effect on the contracting
     environment, and it adopted strategies and policies to cope with the changing
     environment. One strategy adopted by the C-5 AMP Program Office was early
     involvement of prospective contractors in requirements development by sharing
     and coordinating information. This increased the interaction between contractor
     and Air Force personnel. However, the increased interaction left the requirements
     development process open to undue influence by contractor personnel and could
     lead to requirements that favor one contractor over another in the source selection
     process.




                                          8
     Turnover of Air Force Officials. During the solicitation period of the C-5 AMP,
     the Assistant Secretary of the Air Force (Acquisition) left his position which
     remained vacant throughout the C-5 AMP contract award process. Also, during
     the C-5 AMP solicitation timeframe, the Principal Deputy Assistant Secretary of
     the Air Force (Acquisition) retired. Additional turnovers occurred in both the
     SSA and Advisory Council Chair positions during the solicitation process.

Conclusion
     Air Force personnel did not provide support for their decisions and bypassed risk
     reduction efforts normally in place in the source selection process. The
     documentation reviewed was insufficient to provide an audit trail for the decisions
     made. Improvements are needed to ensure that the source selection records are
     adequate and decisions are properly justified. The lack of controls over the source
     selection process left the C-5 AMP solicitation and contract award unnecessarily
     vulnerable.

Corrective Actions Taken by the Air Force
     Prior to our audit, the Air Force addressed some of the issues presented in this
     report through new policies and procedures. Following the conviction of the
     former Principal Deputy (Druyun), the Acting USD (AT&L) initiated activities to
     further review areas related to the Principal Deputy’s actions. One activity
     involved establishing a Defense Science Board Task Force to review management
     oversight in acquisition organizations. Based on the Task Force
     recommendations, the Air Force updated the AFFARS to address areas related to
     source selection. The revisions include requirements that address the rationale for
     any business judgments and tradeoffs made or relied on by the SSA, including
     benefits associated with additional costs. Further, the updated AFFARS states
     that the source selection decision document must clearly explain the decision and
     document the reasoning used by the SSA to reach the decision.

     In addition, on June 6, 2005, the Acting Secretary of the Air Force and Under
     Secretary of the Air Force, Chief of Staff, issued a memorandum that outlines the
     guidelines for communication throughout the source selection process. These
     guidelines include maintaining thorough records of interactions with potential
     offerors and providing meeting minutes, including attendees, discussion items,
     and briefing charts to the contracting officer for inclusion in the contract file.




                                          9
Management Comments on the Finding and Audit Response
    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) agreed that improvements in
    documentation can always be made, but noted that source selection participants
    took every precaution to ensure the integrity of the source selection. The Military
    Deputy also stated the Air Force believes that the actual award decision was
    reasonably documented to justify the selection.

    Audit Response. We acknowledge that the source selection participants took
    precautions to ensure the integrity of the source selection; however, the
    documentation reviewed was insufficient to provide the audit trail necessary for
    auditors to recreate the decision-making process used in the C-5 AMP source
    selection.

Recommendations and Management Comments
    We recommend that the Assistant Secretary of the Air Force (Acquisition):

       1. Identify the source selection process as a high risk area vulnerable to
          manipulation.

    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred with the recommendation and
    agreed to identify the source selection process as a high risk area though the Air
    Force’s implementation of DoD Directive 5010.38.

       2. Establish a systematic review process that tests the effectiveness of
          controls over the source selection process.

    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred with the recommendation and
    plans to implement the recommendation by:

       •   requesting that the office responsible for the C-5 AMP program identify
           and incorporate the source selection process within the Management
           Control Procurement Reporting Category of their Management Control
           Program,

       •   addressing source selection as a special interest item during Unit
           Compliance Inspections,

       •   adding the source selection process as an assessable unit to their Major
           Command and Direct Reporting Unit management control plans, and

       •   implementing changes made to the Air Force contract clearance
           procedures that require additional reviews including an independent
           approval process with mandatory legal participation.



                                        10
Appendix A. Scope and Methodology
    Review of Source Selection Documents. We reviewed the procedures and
    documentation used to support the Air Force decision to award the C-5 AMP
    contract to Lockheed Martin Aeronautical Systems. The evaluation was
    performed at Wright-Patterson Air Force Base, Dayton, Ohio. The
    documentation we reviewed included briefing charts, source selection plans,
    acquisition plans, meeting minutes, contractor data, and other relevant source
    selection information. The dates of the documentation reviewed ranged from
    June 1997 through January 1999, the month the Source Selection Decision
    Document was issued. We reviewed these documents to determine compliance
    with the FAR and AFFARS. Further, we interviewed personnel at Wright-
    Patterson Air Force Base; the Office of the Assistant Secretary of the Air Force
    (Acquisition) Headquarters, Washington, D.C.; and the Office of the Under
    Secretary of Defense (Acquisition, Technology, and Logistics).
    We performed this audit from April 2005 through October 2005 in accordance
    with generally accepted government auditing standards. Our scope was limited
    by the number of key personnel available for interview because many of the
    personnel involved in the source selection process for the C-5 AMP no longer
    worked for the Department of Defense. Additionally, the personnel that were
    interviewed had a difficult time remembering certain facts because the source
    selection was over 7 years ago and no documentation was retained to support their
    recollections. Therefore, we determined that pursuing interviews with retired or
    private sector personnel would not be advantageous because we had no
    documentation to corroborate their recollections.

    C-5 Reliability Enhancement Re-Engining Program Files. We additionally
    conducted a limited review of the source selection documentation and contracting
    files for the C-5 Reliability Enhancement Re-Engining Program. Specifically, we
    reviewed the January 3, 2000, justification and approval of the sole source
    contract award to Lockheed Martin Aeronautical Systems to determine whether it
    was performed in accordance with the FAR. Further, we reviewed the contracts
    and contract modifications for the C-5 AMP and C-5 Reliability Enhancement
    Re-Engining Program to determine whether tasks shifted between the contracts.
    This contracting information was dated from January 1999 through August 2005.
    We determined that the C-5 Re-Engining Program justification and approval for
    sole source selection was appropriate and there was no evidence that tasks were
    being shifted between the two contracts.

    Use of Computer-Processed Data. We did not use computer processed data to
    perform this audit.

    Use of Technical Assistance. We did not use technical assistance to perform this
    audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Contract Management high-risk area.



                                        11
Prior Coverage
    No prior coverage has been conducted on the C-5 AMP during the last 5 years.




                                      12
Appendix B. The Druyun Study
    In November 2004, the Acting USD (AT&L) chartered a study team to conduct a
    review of the acquisition actions involving the Principal Deputy. The study team
    included contracts and technical personnel, attorneys, and auditors from the
    Department of the Navy, Department of the Army, Defense Contract Audit
    Agency, General Services Administration, and Defense Contract Management
    Agency. The study team reviewed specific actions executed during the tenure of
    the Principal Deputy.

    The objective of the study was to determine whether the Principal Deputy’s
    decisions were consistent with Department of Defense standards of integrity and
    sound business practices. The study team reviewed 407 acquisition actions as
    potentially having the Principal Deputy’s involvement. The study team identified
    the following acquisition actions for review: source selection decisions,
    acquisition strategy panel decisions, revisions to acquisition strategy reports
    during or after acquisition strategy panel approvals, award fee determinations,
    equitable adjustments, actions involving contested payments to contractors,
    contract restructures, contract extensions, and contract litigations. The study team
    identified eight contracts that they recommended to the Acting USD (AT&L) for
    further investigation. One of the identified contracts related to the C-5 AMP.
    The study summarizes its findings related to the C-5 AMP by stating that the
    review raised concerns because of the level of interest and influence the Principal
    Deputy had over the source selection. Specifically, the study states that the
    Principal Deputy withdrew the SSA delegation assigned by her superior to
    become the SSA herself without sufficient justification, and during the source
    selection she adjusted the Advisory Council’s ratings to better support the higher
    cost proposal presented by Lockheed Martin Aeronautical Systems. The Principal
    Deputy justified the change in ratings in the Source Selection Decision Document
    by disagreeing with the assessment presented by the Advisory Council.
    Therefore, the study team recommended the Acting USD (AT&L) forward the
    C-5 AMP source selection for further review. On February 11, 2005, following
    the completion of the study, the Acting USD (AT&L) issued a memorandum
    requesting the Department of Defense Inspector General assist in the review of
    the contracts identified in the study.




                                         13
Appendix C. Information on Positions, Duties,
            and Responsibilities

                   Office of the Assistant Secretary of the Air Force (Acquisition)
                                        Organizational Chart

                                         Secretary of the Air Force



                                           Assistant Secretary
                                            of the Air Force
                                             (Acquisition)




                   Principal Deputy Assistant                    Principal Deputy Assistant Secretary
                   Secretary of the Air Force                       of the Air Force (Acquisition &
                          (Acquisition)                           Management) (Druyun’s Position)




           Secretary of the Air Force. The Secretary of the Air Force, pursuant to
           section 8013, title 10, United State Code, is responsible for and has the authority
           necessary to conduct all affairs of the Department of the Air Force. In the
           absence of the Assistant Secretary of the Air Force (Acquisition), the Secretary of
           the Air Force retains the authorities and duties of the Air Force Acquisition
           Executive, Senior Procurement Executive, and the Head of the Contracting
           Activity for Air Force acquisition programs. *

           Assistant Secretary of the Air Force (Acquisition). The Assistant Secretary of
           the Air Force (Acquisition) is responsible for the overall supervision of the
           Air Force acquisition system. The Assistant Secretary serves as the Air Force
           Acquisition and Procurement Executive and as a member of the Air Force
           Council. As the Acquisition Executive, the Assistant Secretary works directly
           with the Defense Acquisition Executive. The Office of the Assistant Secretary
           ensures that the Air Force Chief of Staff receives the support required for
           acquisition matters. The general responsibilities of the Assistant Secretary
           include direction, guidance, and supervision over all matters pertaining to the
           formulation, review, approval, and execution of plans, policies, programs, and
           budgets.




*
    In the March 17, 1998, memorandum, “Further Assignment of Responsibilities in the Absence of an
    Assistant Secretary for Acquisition,” from the Acting Secretary of the Air Force.



                                                      14
Principal Deputy Assistant Secretary of the Air Force for Acquisition
(Principal Deputy [Acquisition]). The Principal Deputy (Acquisition) is
responsible for science, technology, and engineering; special programs; and
program integration. In the absence of the Assistant Secretary of the Air Force
(Acquisition), the Secretary of the Air Force assigned the Principal Deputy
(Acquisition) primary responsibility for the day-to-day operation of the Office of
the Assistant Secretary of the Air Force (Acquisition) and the authorities and
duties of the Chief Information Officer for the Air Force. The Mission Area
Directors, Designated Acquisition Commanders, and Functional Area Managers
reported to the Principal Deputy (Acquisition). In addition, the Principal Deputy
(Acquisition) assumed responsibility for budget, funding, and resource matters
and represented the Office of the Assistant Secretary of the Air Force Acquisition
on the Air Force Council.

Principal Deputy Assistant Secretary of the Air Force for Acquisition and
Management (Principal Deputy as used throughout the report). The Principal
Deputy is the chairperson for all Acquisition Strategy Panels, all Acquisition
Portfolio Reviews of Program Executive Officer programs, the Air Force
Acquisition Professional Development Council, the Air Force Contract
Adjustment Board, the Civilian Appraisal Quality Review Committee, and the
Independent Research and Development Council. In the absence of the Assistant
Secretary of the Air Force (Acquisition), the Secretary of the Air Force assigned
the Principal Deputy the responsibility for the oversight and execution of Program
Executive Officer programs. The Program Executive Officers, Deputy Assistant
Secretary for Contracting, and Director of Depot Maintenance report to the
Principal Deputy. The Principal Deputy also served as the Source Selection
Authority for all major acquisition programs during the Assistant Secretary of the
Air Force (Acquisition) absence.




                                    15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, National Security Agency
President, Defense Systems Management College

Non-Defense Federal Organization
Office of Management and Budget




                                          16
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        17
Assistant Secretary of the Air Force
(Acquisition) Comments




                       19
20
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Douglas P. Neville
Amy L. Mathews
Lashonda M. Thompson
Michael T. Burger
Lamar Anderson
Michael T. Hepler
Karen M. Borrero
Erin S. Hart
